Washington, D.C. 20530

April 27, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Ezralee J. Kelley v. United States of America,
S.Ct. No. 20-7474
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 15, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on May 5, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 4, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7474
KELLEY, EZRALEE J.
USA

MATTHEW A. CAMPBELL
FEDERAL PUBLIC DEFENDER
1336 BELTJEN ROAD
SUITE 202
SAINT THOMAS, VI 00802
340-774-4449
MATT_CAMPBELL@FD.ORG
DOUGLAS R. MCKUSICK
THE RUTHERFORD INSTITUTE
PO BOX 7482
CHARLOTTESVILLE, VA 22906-7482
434-978-3888
DOUGLASM@RUTHERFORD.ORG
TIFFANY R WRIGHT
HOWARD UNIVERSITY SCHOOL OF LAW
CIVIL RIGHTS CLINIC
2900 VAN NESS STREET, NW
WASHINGTON, DC 20008
HUSLCIVILRIGHTSCLINIC@GMAIL.COM

